C'OCKLE a

2311 Douglas Street NN :
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214 :
Est. 1923

Web Site

1-800-225-6964
www.cocklelegalbriefs.com

(402) 342-2831
Fax: (402) 342-4850

No. 20-

COALITION FOR BETTER GOVERNMENT
and DARLEEN JACOBS,
Petitioners,
VS.
ALLIANCE FOR GOOD GOVERNMENT,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8735 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of August, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska ) / ve Chl,
i RENEE J. GOSS 9 le .

Affiant

My Comm. Exp. September 5, 2023

 

Notary Public
41255
